<html>
<title> - AN OVERVIEW OF THE BUDGET PROPOSAL FOR THE NATIONAL AERONAUTICS AND SPACE ADMINISTRATION FOR FISCAL YEAR 2017</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






                  AN OVERVIEW OF THE BUDGET PROPOSAL 
                   FOR THE NATIONAL AERONAUTICS AND 
               SPACE ADMINISTRATION FOR FISCAL YEAR 2017

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON SPACE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             March 17, 2016

                               __________

                           Serial No. 114-68

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://science.house.gov




                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-838 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
   
   
   
   
   
   
   
   
   
   
   








              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DONALD S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEPHEN KNIGHT, California           MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DRAIN LAHOOD, Illinois
                                 ------                                

                         Subcommittee on Space

                     HON. BRIAN BABIN, Texas, Chair
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             AMI BERA, California
MICHAEL T. McCAUL, Texas             ZOE LOFGREN, California
MO BROOKS, Alabama                   ED PERLMUTTER, Colorado
BILL POSEY, Florida                  MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            DONALD S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   EDDIE BERNICE JOHNSON, Texas
STEVE KNIGHT, California
LAMAR S. SMITH, Texas























                            C O N T E N T S

                             March 17, 2016

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Babin, Chairman, Subcommittee 
  on Space, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    24
    Written Statement............................................    26

Statement by Representative Donna F. Edwards, Ranking Minority 
  Member, Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    28
    Written Statement............................................    30

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    32
    Written Statement............................................    34

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    37
    Written Statement............................................    38

                               Witnesses:

The Honorable Charles F. Bolden, Jr., Administrator, National 
  Aeronautics and Space Administration
    Oral Statement...............................................    39
    Written Statement............................................    42

Discussion.......................................................    51

             Appendix I: Answers to Post-Hearing Questions

The Honorable Charles F. Bolden, Jr., Administrator, National 
  Aeronautics and Space Administration...........................    73

 
                   AN OVERVIEW OF THE BUDGET PROPOSAL
                    FOR THE NATIONAL AERONAUTICS AND
                          SPACE ADMINISTRATION
                          FOR FISCAL YEAR 2017

                              ----------                              


                        THURSDAY, MARCH 17, 2016

                  House of Representatives,
                              Subcommittee on Space
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 2318, Rayburn House Office Building, Hon. Brian Babin 
[Chairman of the Subcommittee] presiding.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





    Chairman Babin. Without objection, the Chair is authorized 
to declare recesses of the Subcommittee at any time.
    I'd like to welcome everyone today to the hearing entitled 
``An Overview of the Budget Proposal for the National 
Aeronautics and Space Administration for Fiscal Year 2017.''
    And I recognize myself for five minutes for an opening 
statement.
    The first and perhaps most important point that I want to 
make today is that NASA is a worthwhile investment for the 
taxpayer and for our nation. Space is as important to our 
future as were the frontiers of land, sea, and air that we 
faced in the past. NASA's mission to explore outer space and to 
use outer space for the benefit of our nation and for mankind 
is an endeavor worthy of a great nation, which we are.
    NASA as an agency, its employees, and contractors deserve 
our praise. I represent the 36th District of Texas and the home 
of the Johnson Space Center. I can say from personal experience 
talking with the folks out at Johnson that, regardless of the 
budgetary and policy differences in Congress and within the 
Administration, they are very passionate and are dedicated to 
NASA's mission.
    Unfortunately, this Administration has once again done a 
disservice to NASA, its employees, and our nation by providing 
a budget request that ignores the budget agreement, requesting 
mandatory funding for NASA. I had hoped that the Administration 
would demonstrate leadership by proposing a realistic budget, 
but instead, we were presented with a list of unfunded 
priorities.
    The Administration has also once again disregarded the 
priorities of previous bipartisan NASA funding bills that the 
President signed. For example, even if we include the so-called 
mandatory budget request, the budget proposal cuts the Space 
Launch System, or SLS, and Orion crew capsule by $840 million 
and the Planetary Science Division by $133 million. Without the 
mandatory funding, SLS and Orion are cut by $1 billion. 
Planetary Science is cut by $261 million. This is not 
acceptable. This is a budget that takes our human spaceflight 
program nowhere fast. This budget undermines our space program 
and diverts critical funding to lower-priority items.
    I have been, and continue to be, concerned that the support 
in Congress and at NASA for the SLS and Orion programs is not 
matched by the Administration. The Administration consistently 
requests large reductions for these programs despite the 
insistence of Congress that they be priorities. Orion and SLS 
are strategic national assets and must be sufficiently funded.
    Proposed cuts to the Planetary Science Division are equally 
disturbing. The pipeline for outer-planet missions has been 
woefully under-prioritized. It is critical that our nation 
maintain a robust outer-planet exploration program.
    Already, the effects of this diminished cadence are being 
felt. To keep their staff employed, planetary science 
institutions increasingly seek funding from foreign space 
agencies to compensate for the lack of projects. This results 
in transference of valuable skills and knowledge out of the 
United States to countries like China. Experienced planetary 
scientists are also transitioning to other fields, while young 
scientists are choosing to not enter the field at all, gutting 
our national capacity in planetary science. This is disturbing 
and unacceptable and just plain bad for America from many 
viewpoints.
    It is important that NASA maintains a balanced portfolio of 
science activities. Unfortunately, year after year, this 
Administration has requested disproportionate increases for 
Earth science activities, activities that are already funded by 
more than a dozen other federal agencies. This year, the 
President's proposal seeks to increase the science budget by 
$111 million, a six percent increase. This amounts to a 70 
percent increase since 2007. If this money had been put toward 
our human spaceflight program, I don't think that we would be 
spending hundreds of millions on Russian launch services.
    The request also dilutes NASA's existing Earth science 
research portfolio by conducting other agencies' work. It is 
developing climate sensors for NOAA and land-imaging 
capabilities for USGS. While NASA certainly has the expertise 
to do this work, they don't have the budget or the 
requirements. NOAA is tasked with maintaining operational 
climate measurements, and USGS is tasked to maintain Landsat 
measurements. This budget makes NASA the piggy bank for other 
agencies. That must end.
    If NASA is tasked to do other agency's work, it should do 
so on a reimbursable basis, as it does successfully for other 
programs such as the Joint Polar Satellite System and the 
Geostationary Operational Environmental Satellite System.
    Our nation has been spacefaring since 1958, only 58 years. 
And while we have accomplished great things in these 58 years, 
there is so much more to learn and to discover and to put to 
practical use for the benefit of our nation and all mankind. 
But we as a nation will not be leading this journey unless we 
adequately fund NASA's human spaceflight and planetary science 
missions.
    Other nations, such as China, are working overtime to 
displace American and become the global leader in space 
exploration. The consequences of America getting it right or 
wrong are not immediate, but they are enormous. The rules are 
going to be made by those countries that are on the surface of 
the moon and Mars, not those that have stayed home.
    I want to thank Administrator Bolden for his testimony, and 
I look forward to a robust discussion. Thank you.
    [The prepared statement of Chairman Babin follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Chairman Babin. And now, I recognize the Ranking Member, 
the gentlewoman from Maryland, for an opening statement.
    Ms. Edwards. Thank you very much, Chairman Babin, and thank 
you for calling this hearing to examine the fiscal year 2017 
budget request for the National Aeronautics and Space 
Administration, NASA.
    I'd like to start by joining you in welcoming our good 
friend and inspiring leader and exemplar of public service, 
Administrator General Charlie Bolden. Thank you, General 
Bolden, for your service to our nation. And we are very 
fortunate to have you at the helm of our nation's space agency 
for your consistency, your steadfastness.
    Mr. Chairman, our space program is a shining example of 
what we can accomplish as a nation when we harness the talents 
of our workforce and the capabilities of our industry, 
academia, and international partners.
    The fiscal year 2017 budget request for NASA is $19 
billion, a 1.3 percent reduction from the enacted appropriation 
for fiscal year 2016. And I would like to say that I was very 
pleased with that enacted appropriation. And so while this 
proposal is a good starting point for the Administration for 
this morning's discussion, I hope that we can at least get to 
the $19.3 billion level that Congress appropriated for NASA in 
fiscal year 2016. It's a gentle dance that we do every year.
    I'm pleased that the request proposes to revitalize our 
nation's aeronautics research activities with an exciting 
initiative to use ``X-planes'' to demonstrate technologies 
leading to cleaner, quieter, and more efficient aircraft. 
Demonstrating and applying advanced technologies is important 
to maintaining our competitive edge and sustaining the 
significant economic benefits that commercial aviation 
provides.
    And I'm heartened that the request proposes increases above 
the levels provided in the fiscal year 2016 appropriations for 
the safety, security, and mission services account, which, 
among other things, provides the funding to operate NASA's 
field centers, including the Goddard Space Flight Center in 
Maryland.
    I'm also pleased that the request would sustain a robust 
science program composed of research and data analysis grants 
and small and medium and large missions, including development 
of high-priority missions such as the James Webb Space 
Telescope, the Wide-Field Infrared Survey Telescope, the Europa 
Clipper, the Mars 2020 Rover, and the Solar Probe Plus 
missions. NASA's science programs are furthering our knowledge 
of our home planet and opening new windows into our universe. 
And if humanity is one day to extend its presence beyond Earth, 
we will need the scientific understanding to do just that. 
We'll also need to take a series of steps along a pathway 
involving technology development, demonstration of operational 
capabilities, and development and testing of exploration 
systems to make that move.
    And while NASA has developed a ``Journey to Mars'' strategy 
that provides an initial outline of a pathway to Mars, we 
shouldn't have to say it again, but we need a baseline roadmap 
and structure to support such a multi-decadal endeavor, and we 
need that now. Such a roadmap would help put in sharp focus the 
impacts that the proposed reductions to the Space Launch System 
and the Orion crew vehicle, a combined 22 percent from the 
fiscal year 2016 enacted level, would have on making progress 
towards the humans-to-Mars goal.
    Frankly, I'm a little bit puzzled by the deja vu we're 
experiencing with the proposed reductions to the SLS and Orion 
programs. I share that concern that the Chairman has expressed 
from the levels Congress appropriated just this past fiscal 
year in 2016.
    Even more puzzling and somewhat concerning is a continued 
talk of targeting an internal date for the first crewed Orion 
and SLS flight and the EM-2 mission in 2021 when the resources 
being requested are actually geared to a 2023 date, and so that 
needs some explaining. The Aerospace Safety Advisory Panel 
raised caution about this kind of approach in its 2015 annual 
report when it said ``NASA has briefed the ASAP on measures... 
that appear to be making safety tradeoffs in order to maintain 
a 2021 EM-2 launch schedule.'' The ASAP went on to say ``while 
the desire to fly crew on Orion as soon as possible is 
understandable, NASA is building a long-term exploration 
program and adjustments to the near-term schedule or mission 
content that result in far safer systems can be an advantageous 
trade.''
    Mr. Chairman, I know that you and I and many of our 
colleagues here this morning want to get to Mars sooner rather 
than later, but we must establish an enduring system that will 
get us there and back safely time and time again. To do so, we 
need to ask ourselves some important questions. Will Congress 
and NASA be able to establish the budgetary and programmatic 
discipline required to meet this goal? Will this committee and 
the Congress be true to providing the funding stability, 
sustainability, and constancy of purpose that we and others 
have said are critical for NASA as we prepare to transition to 
a new Administration less than a year from now? How will we 
navigate the bifurcated 2017 budget request, including both 
mandatory and discretionary funding, to provide the necessary 
stability?
    And, Mr. Chairman, we owe our next generation a vibrant 
space agency, in partnership with industry, academia, and 
international partners, to continue its historic mission and to 
pursue the goal of one day sending humans to the surface of 
Mars. The future is now. The choice is ours, and it's up to us 
to ensure the future of our space program is a bright one.
    I want to also acknowledge the presence here today of our 
future, Kendra Wood, who's an intern in my office and a 
graduate of the University of Maryland Eastern Shore. She is a 
superstar, and we owe it to her generation, also to our 
visitors from Spelman College, a senior at Spelman, Antonia 
Hill, who's visiting with us here today. And so let's keep 
these young people in mind as we talk about the future of 
space.
    And I yield the balance of my time.
    [The prepared statement of Ms. Edwards follows:]

              Prepared Statement of Subcommittee on Space
                 Ranking Member Donna F. Edwards (D-MD)
    Chairman Babin, thank you for calling this hearing to examine the 
Fiscal Year 2017 budget request for the National Aeronautics and Space 
Administration--NASA.
    I'd like to start by joining you in welcoming a friend, an 
inspiring leader, and an exemplar of public service, Administrator 
Charlie Bolden. Thank you, General Bolden, for your service to our 
nation. We are fortunate to have you at the helm of our nation's space 
agency.
    Mr. Chairman, our space program is a shining example of what we can 
accomplish as a nation when we harness the talents of our workforce and 
the capabilities of our industry, academia, and international partners.
    The Fiscal Year 2017 budget request for NASA is $19 billion--a 1.3 
percent reduction from the enacted appropriation for Fiscal Year 2016. 
While this proposal is good starting point for this morning's 
discussion, I hope that we can at least get to the $19.3 billion level 
that Congress appropriated for NASA in Fiscal Year 2016.
    I am pleased that the request proposes to revitalize our nation's 
aeronautics research activities with an exciting initiative to use ``X-
Planes'' to demonstrate technologies leading to cleaner, quieter, and 
more efficient aircraft. Demonstrating and applying advanced 
technologies is important to maintaining our competitive edge and 
sustaining the significant economic benefits that commercial aviation 
provides.
    And, I'm heartened that the request proposes increases above the 
levels provided in the FY 2016 appropriations for the Safety, Security, 
and Mission Services account which, among other things, provides the 
funding to operate NASA's field centers, including the Goddard Space 
Flight Center in Maryland.
    I am also pleased that the request would sustain a robust Science 
program composed of research and data analysis grants and small, 
medium, and large missions, including development of high-priority 
missions such as the James Webb Space Telescope, the Wide-field 
Infrared Survey Telescope, the Europa Clipper, the Mars 2020 rover, and 
the Solar Probe Plus missions.
    NASA's science programs are furthering our knowledge of our home 
planet and opening new windows into our universe. And, if humanity is 
to one day extend its presence beyond Earth, we will need the 
scientific understanding to do so.
    We will also to need to take a series of steps along a pathway 
involving technology development, demonstration of operational 
capabilities, and development and testing of exploration systems to 
make that move.
    While NASA has developed a Journey to Mars strategy that provides 
an initial outline of a pathway to Mars, we need a baseline roadmap and 
structure to support such a multidecadal endeavor. Such a roadmap would 
help put in sharper focus the impacts that the proposed reductions to 
the Space Launch System (SLS) and the Orion crew vehicle--a combined 22 
percent from the FY 2016 enacted level--would have on making progress 
toward the humans-to-Mars goal.
    Frankly, I am puzzled by the deja vu we are experiencing with the 
proposed reductions to the SLS and Orion programs from the levels 
Congress appropriated for Fiscal Year 2016. Even more puzzling and 
somewhat concerning is the continued talk of targeting an internal date 
for the first crewed Orion and SLS flight--the EM-2 mission--in 2021 
when the resources being requested are geared to a 2023 date.
    The Aerospace Safety Advisory Panel raised caution about this 
approach in its 2015 Annual Report when it said, ``NASA has briefed the 
ASAP on measures.that appear to be making safety trade-offs in order to 
maintain a 2021 EM-2 launch schedule.''
    The ASAP went on to say, ``While the desire to fly crew on Orion as 
soon as possible is understandable, NASA is building a long-term 
exploration program, and adjustments to the near-term schedule or 
mission content that result in far safer systems can be an advantageous 
trade.''
    Mr. Chairman, I know that you, I, and many of our colleagues here 
this morning want to get to Mars sooner rather than later. But we've 
got to establish an enduring system that will get us there and back 
safely, time and time again. To do so, we need to ask ourselves some 
important questions.

    <bullet>  Will Congress and NASA be able to establish the budgetary 
and programmatic discipline required to meet this goal?

    <bullet>  Will this Committee and Congress be true to providing the 
funding stability, sustainability and constancy of purpose that we and 
others have said are critical for NASA as we prepare to transition to a 
new Administration less than a year from now?

    <bullet>  How will we navigate the bifurcated FY 2017 budget 
request, including both ``mandatory'' and discretionary funding, to 
provide the necessary stability?

    Mr. Chairman, we owe our next generation a vibrant space agency, in 
partnership with industry, academia, and international partners, to 
continue its historic mission and to pursue the goal of one day sending 
humans to the surface of Mars. The future is now. The choice is ours. 
It is up to us to ensure the future of our space program is a bright 
one.
    Thank you and I yield back.
    Chairman Babin. Thank you, Ms. Edwards.
    I now recognize the Chairman of our full committee, Mr. 
Smith.
    Chairman Smith. Thank you, Mr. Chairman.
    And Administrator Bolden, welcome. I'm glad you're here.
    Mr. Chairman, this committee has demonstrated time and 
again that U.S. leadership in space is a bipartisan priority. I 
believe that many of the hardworking scientists, engineers, and 
innovators working at NASA share our interest in ensuring 
America leads the world in space.
    There are some areas of agreement between the Committee and 
the Administration in NASA's fiscal year 2017 budget request. 
But this proposed budget continues to tie our astronauts' feet 
to the ground and makes a Mars mission all but impossible.
    This budget cuts funding for human exploration by nearly $1 
billion, and robotic exploration by almost a quarter of a 
billion dollars. The budget request once again underfunds the 
Space Launch System and Orion programs. This Administration 
cannot continue to tout plans to send astronauts to Mars while 
strangling the programs that will take them there.
    The Administration also attempts to redistribute funding 
within NASA's Science Mission Directorate. For example, 
Jupiter's moon Europa is one of the most promising destinations 
we have in our own solar system for finding life beyond our 
planet. However, this year's request of only $17 million for 
the Europa mission is incredibly disappointing considering the 
mission's potential. This represents roughly a 90 percent 
reduction from the fiscal year 2016 level.
    However, support for other priorities such as the James 
Webb Space Telescope, the Transitioning Exoplanet Survey 
Satellite, and the Wide-Field Infrared Space Telescope is 
encouraging. Missions like these, as well as their search for 
exoplanets and signs of life in other areas of our universe, 
captivate the American public's imagination.
    Overall, though, there is a lack of balance in the science 
account request. One of the most glaring examples is the 
disproportionate increase in the Earth Science Division 
receives at the expense of other science divisions and human 
and robotic space exploration. This represents a 70 percent 
increase for the Earth Science Division since the fiscal year 
2007 request. Over the same period, NASA's overall yearly 
budget has only increased 20 percent.
    The Earth science budget request is 42 percent more than 
the planetary science budget request. In fact, the planetary 
science budget request is a reduction of $113 million over last 
year's level. The Earth science request also is more than the 
Astrophysics Division, the James Webb Space Telescope, and the 
Heliophysics Division combined. There are 13 other federal 
agencies involved in Earth science research but only one that 
is responsible for space science and exploration, and that's 
NASA.
    This budget also proposes $223 million to fund the 
uninspiring Asteroid Retrieval and Redirect Mission. On April 
15, 2010, the President directed NASA to conduct a crewed 
mission to an asteroid by 2025. Then, with the 2014 budget 
request, the Administration changed course and directed NASA to 
redirect an asteroid to orbit the moon and then visit that 
asteroid in lunar orbit. Then, last year, NASA decided to only 
remove and redirect a boulder from a larger asteroid.
    Originally scheduled for 2017, then 2020, this budget 
request now slips the first robotic launch to 2021. The crewed 
encounter will also slip to 2026 and more likely later based on 
SLS mission requirements. In practical terms, the President's 
own budget delays the ARM beyond the next Administration's 
second term.
    All of NASA's advisory bodies have criticized the project. 
International interest is absent. The scientific community is 
unimpressed. The Administration continues to push this mission 
on NASA without any connection to a larger exploration roadmap 
and absent support from the scientific community or NASA's own 
advisory committees.
    It is NASA's responsibility to provide a compelling plan 
for space exploration and execute it. It is Congress's 
responsibility to ensure NASA's budget is prioritized and 
funded. This committee will do everything in its power to 
support American leadership in space.
    Mr. Chairman, before I yield back, let me compliment 
Administrator Bolden because I think he is a committed public 
servant. I think he is doing the best job anybody can do under 
the circumstances. And I have a hunch if he were writing this 
budget, it might vary slightly from the Administration's 
proposed budget.
    You don't need to respond to that, Administrator Bolden, we 
all have our different priorities. But this is simply to say I 
appreciate the job that you're doing, and I continue to be 
impressed with your sincerity and dedication.
    With that I'll yield back.
    [The prepared statement of Chairman Smith follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
  
    Chairman Babin. Yes, sir. Thank you, Mr. Chairman. And I 
concur.
    I now recognize the Ranking Member, Ms. Johnson of the full 
committee, for a five minute statement.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Let me comment before my time starts on how pleased I am to 
hear those remarks from my Chairman. And I really agree with 
him, and that's extraordinary.
    Let me say good morning to everyone and to acknowledge that 
I have a student here with me today, Adia Moss, who is a senior 
at Spelman, and hasten to say that I appreciate the long and 
distinguished service to our nation and your steady leadership 
of NASA, General Bolden. We know that this is a challenging and 
exciting time in the agency's history. I know how passionately 
you care about the nation's space and aeronautics program, and 
I look forward to hearing your testimony today.
    Today's hearing marks the beginning of the Committee's 
consideration of the President's fiscal year 2017 NASA budget 
request. The $19 billion budget request is a strong endorsement 
by the President of the important role that NASA plays. We send 
budgets out of here with a lot less, and then we complain about 
what the President is doing, which is, to them, a lot less.
    This is not to say that this is perfect for a NASA budget 
request, but I do agree with all the elements of it. It is a 
good starting point. It is Congress's deliberations. It is our 
responsibility to send what we feel is a responsible budget 
because it is what our focus should be today, what we want NASA 
to accomplish, and what we are willing to invest in NASA to do 
it so that we can achieve those objectives.
    It may be tempting for some of us to spend our time 
criticizing the President for what they consider shortcomings 
in his budget request, but I think it's not a good use of 
anybody's time. The President has submitted his NASA budget 
request to Congress. It is now our job to determine the funding 
that NASA will receive and the policies it will follow. If we 
fail to do that, we will have no one to blame but ourselves.
    That said, there is much to recommend in this NASA budget 
request. For example, I'm excited by the aeronautics 
initiative. I know the important role that aviation plays in 
our economy and our society, and NASA's R&D has long provided 
the underpinnings of new capabilities in aviation. I'm also 
pleased by the investments made in NASA's science and 
technology activities. History shows us that these investments 
will pay dividends in increased knowledge and new technological 
capabilities.
    On the other hand, I'm disappointed that the funding for 
the Space Launch System and the Orion spacecraft, the systems 
that are essential elements of the nation's future human 
exploration initiatives, have been cut in this budget request. 
We can change that if we wish. Such cuts add just one more 
challenge to those already facing the team of dedicated men and 
women who are working so hard to turn these exploration goals 
into reality. I would anticipate that Congress will reaffirm 
its support for SLS and the Orion by the time this year's 
funding deliberations are complete.
    Which brings me to one final observation, namely, we will 
have a new President by this time next year. I know that there 
are those in NASA who feel the pressure to accomplish as much 
as possible on the new exploration systems before a new 
Administrator takes power. That's understandable. But it can 
wind up doing more harm than good. In its latest report, the 
Aerospace Safety Advisory Panel has raised concerns that 
perceived schedule pressure, whether external or self-imposed, 
can lead to excessive levels of risk being taken on in order to 
try to meet arbitrary deadlines. That's not the path to a 
sustainable or a successful program.
    I hope that NASA management and workers will heed the 
ASAP's concern and not defer needed testing or make overly 
optimistic commitments in a shortsighted attempt to keep those 
programs alive in advance of a new Presidential Administration 
taking power. To all those NASA and contract employees, I would 
simply say, Congress supports SLS and Orion and commercial 
crew, and we will continue to do so no matter what we say here 
to make the news or the record. We will do this in spite of a 
new President taking office. We know that what we do actually 
is rocket science. So take time and the testing needed to do it 
right.
    With that, Administrator Bolden, I again want to welcome 
you. I look forward to your testimony. And I yield back.
    [The prepared statement of Ms. Johnson follows:]

          Prepared Statement of Full Committee Ranking Member
                      Eddie Bernice Johnson (D-TX)

    Good morning. I would like to join the Chairman in welcoming 
Administrator Bolden to today's hearing.
    Administrator Bolden, I appreciate your long and distinguished 
service to our nation and your steady leadership at NASA during a 
challenging and exciting time in the agency's history. I know how 
passionately you care about the nation's space and aeronautics 
programs, and I look forward to hearing your testimony today.
    Today's hearing marks the beginning of the Committee's 
consideration of the President's FY 2017 NASA budget request. This $19 
billion budget request is a strong endorsement by the President of the 
important role that NASA plays in advancing America's R&D enterprise, 
and I appreciate his willingness to attach a high priority to NASA in 
this, his last Federal budget request.
    That is not to say that it is a perfect NASA budget request or that 
I agree with all elements of it. But it is a good starting point for 
Congress's deliberations.
    Because that is what our focus should be today-what do we want NASA 
to accomplish and what are we willing to invest in NASA so that it can 
achieve those objectives.
    It may be tempting for some to want to spend their time criticizing 
the President for what they consider shortcomings in his budget 
request, but I think that is not a good use of anyone's time.
    The President has submitted his NASA budget request to Congress. It 
is now our job to determine the funding NASA will receive and the 
policies it will follow. If we fail to do that, we will have no one to 
blame but ourselves.
    That said, there is much to recommend in this NASA budget request. 
For example, I am excited by the Aeronautics initiative-I know the 
important role that aviation plays in our economy and our society, and 
NASA's R&D has long provided the underpinnings for new capabilities in 
aviation.
    I also am pleased by the investments made in NASA's science and 
technology activities.
    History shows that those investments will pay dividends in 
increased knowledge and new technological capabilities. On the other 
hand, I am disappointed that the funding for the Space Launch System 
and the Orion spacecraft--the systems that are essential elements of 
the nation's future human exploration initiatives--has been cut in this 
budget request.
    Such cuts add just one more challenge to those already facing the 
team of dedicated men and women who are working so hard to turn those 
exploration goals into reality. I would anticipate that Congress will 
reaffirm its support for SLS and Orion by the time this year's funding 
deliberations are complete.
    Which brings me to one final observation, namely, we will have a 
new President by this time next year. I know that there are those in 
NASA who feel the pressure to accomplish as much as possible on the new 
exploration systems before a new Administration takes power.
    That is understandable, but it can wind up doing more harm than 
good. In its latest report, the Aerospace Safety Advisory Panel has 
raised concerns that perceived schedule pressure--whether external or 
self-imposed--can lead to excessive levels of risk being taken on in 
order to try to meet an arbitrary deadline. That's not the path to a 
sustainable or a successful program.
    I hope that NASA management and workers will heed the ASAP's 
concerns and not defer needed testing or make over-optimistic 
commitments in a shortsighted attempt to keep those programs alive in 
advance of a new Presidential administration taking power. To all those 
NASA and contractor employees I would simply say: Congress supports SLS 
and Orion and Commercial Crew, and we will continue to do so when a new 
President takes office. We know that what you do actually is "rocket 
science", so take the time and the testing needed to do it right.
    With that, Administrator Bolden, I again want to welcome you, and I 
look forward to your testimony.

    Chairman Babin. Thank you.
    They have called votes, so we're going to move right along 
here.
    I'd like to introduce our first and our only witness today, 
and that is Hon. Charles F. Bolden, Jr. General Bolden has been 
the Administrator of NASA since 2009, and he's a man who has 
devoted his entire career in service to our country, and I 
thank him for that.
    Prior to becoming Administrator, General Bolden served for 
34 years in the Marine Corps, including 14 years as a member of 
NASA's Astronaut Office. General Bolden has traveled to orbit 
four times aboard the space shuttle, including the flight the 
deployed the Hubble Space Telescope. General Bolden has several 
honorary doctorates from a variety of prestigious universities 
and received his bachelor's in electrical science from the U.S. 
Naval Academy.
    I would add that General Bolden and I share the honor of 
having our sons graduate from the U.S. Naval Academy as well. 
His son Che is a Naval aviator currently, and my son Leif was a 
Navy SEAL.
    Now, let's hear from General Bolden for the next five 
minutes. Thank you, General.

         TESTIMONY OF THE HON. CHARLES F. BOLDEN, JR.,

            ADMINISTRATOR, NATIONAL AERONAUTICS AND

                      SPACE ADMINISTRATION

    Hon. Bolden. Mr. Chairman, thank you very much. And to you 
and the Members of the Committee, it is indeed a pleasure and 
an honor to discuss with you today President Obama's $19 
billion fiscal year 2017 budget request for NASA.
    And as I had to do the day before yesterday, I want to make 
sure that my position is not mischaracterized by the Chairman 
and others. This is my budget, and I had to battle----
    Chairman Smith. Then I'll have to retract all those nice 
compliments I gave you.
    Hon. Bolden. That's why I want to make sure that the 
compliments are earned and not just said to be nice.
    I am very proud of this budget, and I think all of you know 
that when it comes budget time, you go into deliberations, and 
I have two sets of deliberations. I go into deliberations with 
the Administration, and then I come and what I would like to do 
is be involved in the deliberations with the Congress on how 
the budget turns out.
    So I'm very proud of the budget that we're presenting today 
because it builds on what I think was an incredible budget from 
this Congress in fiscal year 2016, and I cannot thank you 
enough for that. You made us feel needed and appreciated, and 
we want to keep doing that. So that's what we tried to do with 
this budget.
    It's been my honor to serve as the NASA Administrator 
throughout the Obama Administration and, as we submit what is 
likely my final budget--yes, ma'am--I am proud of the many 
things this agency has accomplished on behalf of the American 
people with the resources the President and the Congress have 
committed to us over the past seven years. Together, we have 
enabled our nation to continue leading the world in space 
exploration and scientific discovery.
    Two weeks ago, American astronaut Scott Kelly returned home 
from the International Space Station after 12 months working 
off the Earth for the Earth. His year in space will pay 
scientific and medical dividends for years to come, helping 
pave the way for future astronauts to travel to Mars and 
beyond. Commander Kelly significantly advanced our Journey to 
Mars, and I trust that you join me in saluting his service to 
our nation.
    NASA is closer to sending American astronauts to Mars than 
at any point in human history, and this budget will keep us 
moving forward. The support of this committee and the Congress 
is essential to this journey. The International Space Station 
is the cornerstone of our exploration strategy. Thanks to the 
determination and ingenuity of American industry, we have 
returned space station cargo resupply launches to U.S. soil, 
in-sourced jobs, and helped establish a new private market in 
low-Earth orbit.
    American companies are now ferrying supplies to our 
astronauts on the space station from the United States with 
Orbital ATK set to launch again later this month and SpaceX 
targeting a resupply mission in early April, both from the 
Kennedy Space Center. In July, Orbital will conduct a return-
to-flight mission from the Wallops Flight Facility.
    Thanks to the Administration's decision to invest in 
American industry and to the full funding we received from 
Congress for 2016, spearheaded by this Committee, this 
Committee was the first to propose full funding for the 
President's commercial crew program, and I really appreciate 
that. But now Boeing and SpaceX continue to make great progress 
towards certification in 2017 to safely transport our 
astronauts to the space station from U.S. soil, ending our sole 
reliance on Russia once and for all.
    NASA is making significant progress on the Journey to Mars, 
developing our newest, most powerful rocket ever built, the 
Space Launch System and Orion crew vehicle, as part of the 
sustainable and affordable deep space exploration system. This 
budget supports the agency's baseline commitment for an un-
crewed test flight of SLS and Orion in 2018 and a crewed flight 
by 2023. With additional funding provided by the Congress, the 
teams will continue to work toward an earlier launch date for 
the first crewed mission and are already designing and 
procuring long lead hardware for subsequent missions.
    The budget also increases funding for habitation systems 
development, a key component of our steppingstone strategy to 
send humans to Mars. The President's budget funds a robust 
science program with dozens of operating missions studying our 
solar system, the universe, and the most important planet in 
our solar system, Earth. This coming July 4, Independence Day, 
the Juno spacecraft will orbit Jupiter while the Cassini 
spacecraft will prepare to execute its dramatic grand finale, 
orbits of Saturn. OSIRIS-REx will launch to a near-Earth 
asteroid to collect a sample for return to Earth in 2023. In 
2017 and 2018, NASA will launch seven exciting space science 
missions, including the James Webb Space Telescope.
    Before we send humans to Mars, robots are paving the way 
with Mars InSight now targeted for launch in 2018. Another Mars 
rover set to launch in 2020, joining the Curiosity and 
Opportunity rovers now exploring the red planet and work 
underway to define the next Mars mission for 2022.
    We are formulating missions to explore Jupiter's moon 
Europa, as well as WFIRST designed to study dark energy, 
perform galactic and extragalactic surveys, and explore 
exoplanets. We're accelerating the building of Landsat 9 as 
part of our sustainable land-imaging architecture to continue 
our 40-year record of high-quality measurements of Earth's land 
cover.
    NASA technology drives exploration. With this request, NASA 
will continue to conduct rapid development and incorporation of 
transformative missions--space technology missions to enable 
future human and robotic missions, increase capabilities of 
other U.S. agencies, and address aerospace industry challenges. 
Space technology investments will ensure that we continue to 
lead the world in exploration and scientific discovery.
    NASA's aeronautics program advances U.S. global leadership 
by developing and transferring key enabling technologies to 
make aviation safer, more efficient, and more environmentally 
friendly. With this request, NASA aeronautics is ready to take 
the next step to develop and fly X-plane demonstrators in 
partnership with industry and academia, including ultra-
efficient subsonic transport experimental aircraft in the 
world's first low-boom supersonic flight demonstrator.
    Mr. Chairman, I appreciate the support that we have 
received from this committee through the years, and I look 
forward to your questions. And I, too, would like to commend 
the young ladies who are in the audience today, all of them, 
but a special shout-out to the ones from Spelman since that is 
also the alma mater of my wife and my daughter.
    Thank you, Mr. Chairman.
    [The prepared statement of the Hon. Bolden follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
    Chairman Babin. Yes, sir, thank you. I appreciate you very, 
very much.
    And we stand adjourned--excuse me. We stand in recess until 
five minutes after this vote, okay?
    Ms. Edwards. He was like, easy.
    Chairman Babin. No, don't go anywhere, General. All right.
    [Recess.]
    Chairman Babin. I would like to call us back to order after 
our recess and again thank General Bolden for his testimony.
    And now I'd like to recognize myself for five minutes of 
questions.
    And again, thank you for being here, General Bolden. I'd 
like to ask you a question about the budget, of course. The 
former space shuttle commander Eileen Collins was testifying 
before our committee probably less than, what, three weeks ago 
maybe about the decision to cancel the Constellation program. 
That was not made by NASA at all but by the White House. She 
said, ``I believe the program cancellation decisions that are 
made by bureaucracies behind closed doors and without input by 
the people are divisive, damaging,'' and she said ``cowardly, 
and many times more expensive in the long run.'' Similar 
complaints of White House meddling with NASA's programs counter 
to NASA's own program managers surrounds the SOFIA telescope 
aircraft, the Orion crew vehicle, Space Launch System, and 
various Mars missions.
    The point here is that this White House ignores NASA's 
input but then tells you and your Associate Administrators to 
defend their decisions before Congress. And as you mentioned a 
while ago, maybe it's not just all of his decisions. That's 
what we'd like to find out.
    Did the White House consult you about this idea to fund 
NASA through mandatory spending accounts?
    Hon. Bolden. No, sir, they did not, but we had extensive 
discussions after we saw the budget and--because I asked the 
question of what's the difference when I had my conversation or 
at least passing words between me and the OMB Director, I was 
assured that our budget is $19 billion. And so if you ask me to 
define for you what the difference is between mandatory and 
discretionary, I'm going to take it for the record----
    Chairman Babin. Right.
    Hon. Bolden. --because my budget is $19 billion.
    Chairman Babin. Okay. And then without this mandatory 
spending, it looks like the White House's proposed budget for 
NASA is about $1 billion less than Congress appropriated last 
year, which was $19.2 billion. The White House is wasting 
everyone's time with its mandatory spending proposal and trying 
to obfuscate that they're proposing to cut NASA's budget by $1 
billion. A continuing resolution would be better than this 
request. And why are you advocating a cut to NASA?
    Hon. Bolden. Mr. Chairman, I'm not advocating a cut to 
NASA. We are advocating a $19 billion budget, and to be quite 
honest, the reason it wasn't $19.3 billion was because we had 
no idea that the '16 budget was going to be $19.3 billion. As I 
said before, we were all startled pleasantly to receive a $19.3 
billion budget from the Congress. Had we had to pass our final 
numbers in prior to--had we had the benefit of knowing what the 
'16 budget was going to be, we would have asked for even more.
    But as I said before, I am very happy with the $19 billion 
settlement that we came up with in our negotiations with the 
Administration. And, you know, I think there are many other 
things that had to be compensated for, and that's the reason 
that I think they chose to use mandatory and discretionary.
    There are some things that we didn't count on last year, 
dealing with the census, dealing with some of our partners, for 
example, dealing with refugees. There are a lot of different 
issues that come up that come from the discretionary spending 
pool, and so, you know, the President has really tried to push 
research and development, technology development from the 
moment he became President, and this represented a way to do 
that.
    And I think if you look at what is in the mandatory 
section, it is mostly technology development, engineering type 
things, whether it's in human exploration, science, or 
anywhere.
    Chairman Babin. I understand, but with a nearly $20 
trillion national debt, and the biggest problem being mandatory 
spending side of spending, that's a tough nut to crack.
    Hon. Bolden. Yes, sir.
    Chairman Babin. And I'd like to ask you about SLS and 
Orion. In this year's budget request the Administration 
continues to play the game of back-and-forth with Congress on 
SLS and Orion funding, negatively impacting the schedule for 
getting American astronauts back into deep space exploration.
    NASA is formally committed to launch the first crewed 
mission of SLS and Orion known as EM-2 no later than 2023. The 
fiscal year 2017 request funds this commitment. At the same 
time, NASA says that it is internally planning for an EM-1 
launch in 2021. Why doesn't NASA simply request funding for a 
2021 launch date?
    Hon. Bolden. Mr. Chairman, the funds that we requested and 
came in the President's budget request support our detailed 
estimate of how much it would cost and what the time would be 
to fly the first human mission in SLS and Orion, and that is 
2023, utilizing a process that we call joint confidence level 
process, and it gives us a 70 percent confidence that our 
numbers are correct. So when we went through the formal process 
of evaluating based on what we assume the budget might be, 
that's how we came up with the 2023 time.
    The Congress, when they appropriated more than was 
requested, that's the number that we use when we say we're 
working an internal number. You know, if the Congress decides 
that they want to plus SLS up every year, you would be on a 
path to an earlier launch. And the earlier launch, I don't know 
what that date would be, but it would be earlier than the 
President's budget request number.
    Chairman Babin. Okay. Thank you very much.
    I'd like to recognize the gentlewoman from Maryland, 
please, for----
    Ms. Edwards. Thank you very much, Mr. Chairman.
    I want to follow on this date of the internal 2021 date 
versus the external 2023, but I want to go to a different 
place. The Aerospace Safety Advisory Panel in its 2015 annual 
report said that ``NASA had briefed the ASAP on measures... 
that appear to be making safety tradeoffs in order to maintain 
a 2021 EM-2 launch schedule.'' And if ASAP thought it was 
important enough to raise, General Bolden, the question is 
whether there is pressure that's been either perceived or real 
with regard to safety tradeoffs.
    And so I wonder if you've had an opportunity to talk to 
ASAP about this and what are you doing to ensure that the 
agency isn't making near-term trades in trying to meet a 
schedule that could wind up negatively affecting the safety 
needed throughout a long-term exploration program?
    Hon. Bolden. Ms. Edwards, I talk to the ASAP all the time. 
I generally make the ASAP meetings when I travel to wherever 
they are, and Admiral Dyer and I have phone calls back and 
forth.
    I would emphasize to everyone, though, as the ASAP states 
in their report, we have done an awful lot over the last 5, six 
years. When you look at SLS core stages in production at 
Michoud, we just had a big test firing, 500-second firing on 
the main engine down at Stennis. The well for the Orion crew 
module was completed, and it's been shipped to the cape so----
    Ms. Edwards. Right. So those are the technologies.
    Hon. Bolden. Those are our accomplishments.
    Ms. Edwards. I'm talking about safety and the ASAP's----
    Hon. Bolden. Yes.
    Ms. Edwards. --concern with safety and whether this 
pressure to meet a 2023 external goal--2021 rather, whether 
that is too much to ensure the safety of the mission.
    Hon. Bolden. No one puts more emphasis on safety than the 
Administrator, than I do, and I share the ASAP's concern that 
we not be blindly progressing toward a particular date, and 
that's the reason that we have emphasized to the Congress 
before that, as far as we are concerned, as far as the date 
that the agency is committed to, it's 2023.
    You know, if we are able to--there are two things that the 
ASAP pointed out in the report that you cite, and I'll use the 
terms they use. They talked about sufficiency and timing when 
it comes to their concern about safety. Sufficiency is the 
level of funding we get. The most important thing is timing. 
When you get appropriations late each year, that means we're 
operating with less money than we need. We're holding on 
purchasing long lead items. We're holding on everything. It's 
disastrous to industry. They can't plan. So that's the concern 
that the ASAP has.
    And I think--I hope the Congress doesn't miss their 
message. It's a message to all of us that it's not just 
important--it's not just important to have a certain amount of 
money, but you need to be able to have a program, a development 
program that can count on getting the money when you need it. 
We went through this with----
    Ms. Edwards. Well, I----
    Hon. Bolden. --commercial crew and----
    Ms. Edwards. I mean, look, I share that concern, but let's 
remember that we also went through, for different reasons, the 
Columbia disaster or Challenger disaster where there were these 
pressures for time----
    Hon. Bolden. Yes.
    Ms. Edwards. --that ended up in what ultimately sacrificed 
safety and cost lives. And I just want to make sure that we are 
paying attention to those things here.
    I want to go on to another--it would be great, I think, Mr. 
Chairman, if you were to hold a hearing at some point or other 
just examining this specific concern around safety that ASAP 
has raised and maybe we can get to the bottom of this.
    I want to ask you about Earth science in my time remaining. 
Some people have criticized the level of funding that's been 
given to Earth science in the 2017 budget request. We heard 
that here today. And I think what's so often not understood is 
how NASA's Earth science missions and research affect the daily 
lives of Americans. And so I would like you to give us some 
concrete example of how Earth science missions and research 
have actually benefited the American people and our economy.
    Hon. Bolden. I'll give you two, I think, really good 
examples. We have two missions. One is called SMAP, Soil 
Moisture Active Passive. The other one is called GRACE, and I 
don't remember what the acronym stands for, but it looks at 
changes in Earth's gravity, and it can therefore tell us what's 
in a water reservoir under the surface of Earth. Those two 
missions have been used to help us with water issues out on the 
West Coast, as well as around the world. So they have both 
economic and strategic value.
    We look at a program called SERVIR that Earth science 
supports where we provide 30 years of archived Earth science 
data and real-time data from our Earth science satellites 
around the world to help farmers in crop planting, water 
resources management, disaster relief. An earthquake occurs 
somewhere and an Earth science satellite is put, you know, at 
work right away to try to help the disaster managers determine 
what to do. So those are just a couple of examples of what is 
done.
    Today, for example, in Texas and Louisiana we probably have 
a UAVSAR mission. It's an airborne mission, not a satellite, 
airborne mission out of Armstrong with a synthetic aperture 
radar----
    Chairman Babin. That is happening.
    Hon. Bolden. --that's helping to look at levees and dams 
and the like to detect where there may be leaks so that we can 
warn a community if--you know, we don't do the warning but we 
provide the data to the state and local leaders so that they 
can make decisions.
    We've been credited with contributing to saving thousands 
of lives In Bangladesh last year with SMAP because it predicted 
it would--it enabled us to predict floods--flooding in the 
annual rains in Bangladesh. So those are concrete examples of 
how our Earth science program is not just a national program, 
it is an international program highly respected and counted on 
by nations around the world.
    Ms. Edwards. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Babin. Thank you, Ms. Edwards.
    Let's see. The next one is Mr. Rohrabacher, the gentleman 
from California.
    Mr. Rohrabacher. All right. Thank you very much.
    General, I notice--welcome. Important I share the 
Chairman's and other people's admiration and gratitude to you--
--
    Hon. Bolden. Thank you.
    Mr. Rohrabacher. --for the service you've been to our 
country both as a Marine and both in your current position. I 
notice you're wearing a green tie.
    Hon. Bolden. Yes, sir.
    Mr. Rohrabacher. Does that mean you're Irish?
    Hon. Bolden. I am Irish through my daughter Kelly, who was 
born today. So----
    Mr. Rohrabacher. All right. Kelly----
    Hon. Bolden. --she is Kelly O'Bolden, born on St. Patrick's 
Day.
    Mr. Rohrabacher. Now, let's see, there's Kelly and 
there's--and then we have Scott Kelly.
    Hon. Bolden. Scott Kelly, yes.
    Mr. Rohrabacher. So maybe you could answer me. The question 
is I understand that the Mars rover has picked up these 
pictures that have been identified as various elements of a 
former civilization, and I do understand that they have found 
an ancient bottle of Guinness on Mars, is that correct?
    Hon. Bolden. I will go back and check that.
    Mr. Rohrabacher. All right.
    Hon. Bolden. I'll take that for the record.
    Mr. Rohrabacher. And could it be that leprechauns were 
ancient aliens, space aliens?
    Hon. Bolden. I will take that for the record also, sir.
    Mr. Rohrabacher. All right. Let me know about the line of 
questioning that we just had, and that is the projects that you 
outlined and our friends on the other side of the aisle are 
pushing for NASA to be involved in. We have no question about 
whether there is value to these Earth-related projects. The 
question is only whether they should be part of the NASA 
budget, and that's our main area of debate here.
    And certainly if--now, I won't put you on the spot, but the 
fact is if we weren't doing some of the Earth science things 
and NASA's budget could stay the same. If we took those items 
and put them into NOAA and other places that they belong or the 
USGS, for example, you know, then I would take it that you 
would not be as adamantly insisting how important they are, but 
maybe somebody else could be paying for it.
    Hon. Bolden. I would still insist that they're critically 
important. Some of you may remember that in 2014 the 
President's budget request proposed that funding for sustained 
land imaging, the Landsat program, come from the Department of 
Interior, from USGS's budget----
    Mr. Rohrabacher. Right.
    Hon. Bolden. --and the Congress rejected that----
    Mr. Rohrabacher. Well----
    Hon. Bolden. --and put the funds back in NASA----
    Mr. Rohrabacher. Right.
    Hon. Bolden. --simply because they felt that we were the 
appropriate organization to have it.
    The other agencies of the government, we provide the 
design, the build, the production and checkout for all the 
imaging satellites, almost all that are----
    Mr. Rohrabacher. Yes.
    Hon. Bolden. --in the civil sector. The other agencies 
don't have that capability, and so it's a partnership, and it's 
worked for 43 years now in the case of Landsat. And, you know, 
NOAA today has an effective orbiting weather satellite----
    Mr. Rohrabacher. Right.
    Hon. Bolden. --when they're a little bit better off than 
folk on----
    Mr. Rohrabacher. I do understand NOAA aren't you 
compensated from the NOAA budget for what you're doing with 
NOAA there, as compared to the Geological Survey?
    Hon. Bolden. We are indeed.
    Mr. Rohrabacher. So I would imagine that if we could 
actually fund these other--the Earth sciences and not take it 
out of your budget, that it would be something that would be 
positive, but I won't put you on the spot on that.
    The--let's note that another thing that's saving us money, 
however, is the commercial crew. And I want to thank all of my 
colleagues and thank you for the leadership that you've shown 
in trying to show this cost-saving methodology of bringing the 
private sector in when we can and then letting NASA focus on 
those things that the private sector can't do.
    And I know that Virgin Galactic right now is deeply 
involved in developing suborbital space transportation, which 
is terrific. I would hope that we could also, for example, have 
a commercial approach perhaps to lunar missions. And I know 
that NASA is not focused on lunar missions right now, but 
perhaps the private sector could be involved with lunar 
missions, and we could have some kind of involvement there or 
coordination but let the private sector pick up some of the 
cost of going back to the moon if we can do that.
    Hon. Bolden. Mr. Rohrabacher, you're absolutely right, and 
I would say, you know, NASA is on a Journey to Mars. Our 
destination for the nation--this is what we recommended and 
what--I have to compliment--Chairman Smith isn't here right 
now. I complimented Mr. Perlmutter. They wrote an absolutely 
incredible op-ed or an article on, you know, the fact that we 
are the greatest nation in the world. We need to be going to 
Mars.
    But everyone should understand--and I think we're 
mischaracterized when they said we're ignoring the moon. We're 
going to spend ten years, a decade of the '20s, in cislunar 
space. And we call it the proving ground. And that is a period 
of time when, if everything works the way we hope, commercial 
entities, entrepreneurial entities, maybe even some of our 
international partners will ask us to assist them in preparing 
things like landers that may put humans back on the surface of 
the moon on the way to Mars. But----
    Mr. Rohrabacher. Well----
    Hon. Bolden. --this nation has to focus on the big thing, 
which is Mars.
    Mr. Rohrabacher. Why----
    Hon. Bolden. If we don't, then nobody goes there.
    Mr. Rohrabacher. Well, General, I think it's possible to 
focus on the very next step in the stairway rather than----
    Hon. Bolden. And that's the ten years in the proving 
ground.
    Mr. Rohrabacher. --rather than focusing on----
    Hon. Bolden. That is the next step.
    Mr. Rohrabacher. --the--where you're going at the end of 
the stairwell.
    One last note very quickly because my time is up, and that 
is I hope that--one of the things we really need is to make 
sure our country and the world is prepared for a possible 
collision with some space rock that could kill millions of 
people.
    Hon. Bolden. Yes, sir.
    Mr. Rohrabacher. I applaud you, I want to work with you on 
making sure that NASA is playing its role in this global 
defense against an asteroid or----
    Hon. Bolden. Yes, sir.
    Mr. Rohrabacher. --a meteor. So thank you very much.
    Hon. Bolden. Yes, sir. Thank you.
    Chairman Babin. Thank you.
    And I'd like to recognize the gentlewoman from Texas, Ms. 
Johnson.
    Ms. Johnson. Thank you very much.
    General Bolden, the New Aviation Horizons project is 
certainly an exciting initiative, and this is a decade-long 
initiative based on funding offsets that are part of the 
Administration's 21st century ``clean transportation'' plan. 
What are the potential benefits of the X-plane flight 
demonstrations included in the plan?
    Hon. Bolden. Well, there are four demonstrations--
demonstrators that we have, you know, right now that we would 
really like to do. The one that we're attacking first is the 
low-boom supersonic demonstrator. And people ask why that one 
first, and it's because industry is poised to help us design 
and build a low-boom supersonic demonstrator. It's going to 
increase their ability to compete around the world in 
supersonic transport.
    And we've been working on this for number of years now, and 
there are a number of companies like Lockheed, Boeing, 
Gulfstream that have plans on the drawing board, and they just 
need a demonstrator to help us change--get the FAA to change 
the regulations prohibiting supersonic flight over ground.
    The other one is Hybrid Wing Body. The Department of 
Defense is very interested--not just civilian aviation but the 
Department of Defense in terms of transport, cargo transport. 
Hybrid Wing Body changes the efficiency of an airplane, 
increases our fuel efficiency, gives them longer range, so 
that's a second thing that's going to have an economic and 
strategic impact for the nation.
    And then finally, hybrid electric systems where we actually 
sometimes you mix electric engines with regular turbine engine 
and other times you just use electric engines. We've been 
collaborating with our partners in the German space agency 
because they are also--they were out in front of us, and so 
this initiative will allow us to kind of catch up with them and 
assume some of the leadership in looking at hybrid electric 
systems.
    Ms. Johnson. What are the implications of not sustaining 
this project over the decade should the funding fluctuate over 
time?
    Hon. Bolden. The bottom-line implication is that the United 
States will lose its place as the leader in aviation and 
aeronautics. We're struggling to maintain that right now, and 
that was one of the driving forces behind aeronautics coming up 
with a new strategic plan in 2014 with the six strategic 
thrusts that were a part of that plan. And now, being able to 
announce with industry, academia, and others about two weeks 
ago that the President supported this New Aviation Horizons 
initiative that's going to allow the United States to maintain 
their leadership.
    Aviation accounts for the largest balance of trade item in 
this country by a long shot, and if we don't get out in front 
of everybody and do the types of development that will be 
covered in the New Aviation Horizons, we'll lose that edge.
    Ms. Johnson. Does it seem to have the possibility of 
attracting young people to aeronautics----
    Hon. Bolden. No question whatsoever. I go to college 
campuses today, and it hasn't been that long since we started 
talking about this initiative. Students who are in--studying 
aeronautical engineering are--they're ecstatic. They're beside 
themselves.
    I had a special assistant from Langley by the name of Mr. 
Erik Axdahl, who is a hypersonics specialist. After his 6 
months up here with me, he left semi-depressed because he did 
not hear that the United States was going to invest in 
hypersonics. He now, you know, is a little bit happier camper 
because he feels that he has not gone to school and been 
educated and done stuff because the United States is going to 
maintain their leadership in hypersonics because of that.
    And every one of you, hopefully, has a copy of our little 
flyer here and it's got information on the back, and we'd be 
more than happy to come to your district or to your office or 
anywhere and help you understand some of this. Thanks very 
much.
    Ms. Johnson. Thank you. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Babin. Thank you.
    I'd now like to recognize the gentleman from Alabama, Mr. 
Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    Administrator Bolden, first, I'd like to applaud your 
choice of Todd May as Director of the Marshall Space Flight 
Center located in my district. And I'd also like to thank his 
predecessor, Patrick Scheuermann, for his many years of service 
and leadership at NASA, especially at the Marshall Space Flight 
Center. I'm excited about the continued success at Marshall and 
throughout NASA.
    That having been said, have you designated a NASA center 
lead for rocket propulsion that would be able to integrate all 
of NASA's expertise in deep space travel on the Journey to 
Mars?
    Hon. Bolden. Congressman, we don't use the term ``lead 
center'' anymore. It has a bad connotation for people who were 
around at the time of Challenger.
    But what we have done is we have an effort ongoing. It 
started out as something we call TCAT that I think we explained 
it to everybody. Now, it's just baseline services assessment 
where we're trying to identify centers who have the highest 
level of capability in a particular field. There is no question 
that the Marshall Space Flight Center is the--one of their core 
capabilities is propulsion, and so no question whether we're 
talking to DOD or anybody else outside of NASA that Marshall is 
the place that people go when they want to discuss in space and 
leaving the Earth propulsion issues.
    Mr. Brooks. Well, for lack of a better word, I'm going to 
use it again in my next question. While I'm asking about 
program leads, who is program lead for Europa?
    Hon. Bolden. The program lead for Europa presently if I--
and I'll--let me take it for the record, but as my memory 
serves me, the Jet Propulsion Lab is the lead for procurement 
things like the spacecraft ``bus'' and others, and then we have 
other centers that are contributing to that. But JPL in your 
terms would be considered the lead, although they're an FFRDC, 
but it's because of their expertise in planetary travel.
    Mr. Brooks. Well, isn't JPL a federally funded research and 
development center?
    Hon. Bolden. Yes, sir.
    Mr. Brooks. And my impression, and correct me if I'm wrong, 
is that federally funded research and development centers, by 
their nature, can only supply one-of-a-kind research and 
development and not be a program manager.
    Hon. Bolden. That is--I don't think that is--let me take 
that for the record. The definition of a program manager--I 
don't think there's a prohibition because of their unique 
experience and expertise in planetary flight, for example, 
Curiosity and most of our Mars missions. JPL is the center that 
has achieved that for NASA for decades. We have been providing 
precursors on the way to Mars since the '60s, and Jet 
Propulsion Lab has generally been the lead in doing that work.
    So I'll take it for the record for your strict definition 
of who can be a program manager, but program managers for 
planetary missions have not always--have dominantly been at 
JPL.
    Mr. Brooks. Thank you. I'll move on to another area.
    Earlier this week at an appropriations hearing you spoke 
about the need for ``game-changing'' propulsion. Do you support 
nuclear thermal propulsion and what role do you see it playing 
in the Journey to Mars?
    Hon. Bolden. We are on a Journey to Mars, and most people 
believe that in the end, nuclear thermal propulsion will 
probably be the most effective form of propulsion to get there. 
Right now, we are funding at a very low level. Development of 
low-grade nuclear fuel so that we don't have to go through what 
we go through today. So we're taking a step-by-step approach to 
getting to nuclear thermal--to the use of nuclear thermal 
propulsion, but we are years away from doing that.
    Again, Marshall is the dominant center. They have most of 
the capability there, and they're working with some of their 
local contractors who are helping them with developing nuclear 
thermal propulsion.
    Mr. Brooks. Congress authorized $20 million for nuclear 
thermal propulsion for fiscal year 2016. How much is NASA 
planning on spending in fiscal year 2016 on nuclear thermal 
propulsion?
    Hon. Bolden. I'll take that for the record, Congressman. 
I'll just take it for the record. I think I remember, but I 
don't want to guess.
    Mr. Brooks. All right. Thank you, Mr. Chairman. I yield 
back.
    Chairman Babin. Thank you.
    I'd like to recognize the gentleman from Virginia, Mr. 
Beyer.
    Mr. Beyer. Thank you, Mr. Chairman, very much. Thank you, 
Administrator Bolden, for being with us again.
    The planetary sciences come up again and again, and I think 
in the opening Chairman's remarks he talked about why is NASA 
paying for NOAA's satellite research? Why is NASA paying for 
USGS's Landsat stuff? So why? Why don't they pay for----
    Hon. Bolden. In the case of USGS and Landsat it is because 
the Congress refused the President's budget request to transfer 
money for Landsat into the Department of interior. So this 
Congress decided that sustained land imaging is really 
important, and they put the money back in the--you know, 
according to my budget people, they put the money back into 
NASA because we've done it for so long. I'll go back and 
double-check my memory, but I think that--that's pretty simple 
in that case.
    Mr. Beyer. So you'd be fine to have it in the USGS budget 
as long as we put up there?
    Hon. Bolden. As long as the nation continues to do 
sustained land imaging and weather and those kinds of things, I 
think any Administrator is perfectly happy to make sure that we 
support whoever's doing it. You would also have to transfer the 
people from NASA when you talk about the design and build of 
satellites because those agencies don't have the capability to 
do that.
    Mr. Beyer. Okay.
    Hon. Bolden. So this is--we have expertise, and that's, I 
think, why Congress comes back to us and puts the money in the 
NASA budget. So you're talking about a little bit more than 
just transferring money. You're probably going to transfer 
people if you really want those agencies to do what we do.
    Mr. Beyer. So on the case of the mandatory spending, the 
$733 million from----
    Hon. Bolden. Yes, sir.
    Mr. Beyer. --cuts, consolidation, savings, did you do that 
or did the budget--in order to adapt to BCA, the Budget Control 
Act?
    Hon. Bolden. I am told that the Budget Control Act was a 
large factor in the Office of Management and Budget deciding on 
how to divide the money. That is immaterial to me as the NASA 
Administrator. My conversations with the Director of OMB 
through his senior people was, look, you have $19 billion that 
the President is supporting, so that's--I didn't--I don't work 
with mandatory discretionary.
    Mr. Beyer. Okay.
    Hon. Bolden. My Chief Financial Officer, he can 
understand----
    Mr. Beyer. Different question then.
    Hon. Bolden. Yes.
    Mr. Beyer. You mentioned in your testimony that because we 
were on a continuing resolution we didn't get the omnibus 
spending until just before Christmas. Would you have requested 
north of the $19.285 billion if you'd known when you were 
putting the budget together that we were going to authorize or 
actually appropriate $19.285 billion?
    Hon. Bolden. Congressman Beyer, I always request more money 
then we get and, you know, any Administrator, Director, or 
anybody that doesn't go in with a significantly higher number 
than they expect they're going to get is asking not to get 
anything. I--you know, I think anybody would tell you the NASA 
Administrator always comes in with a higher number then I 
ultimately get.
    Mr. Beyer. So that's----
    Hon. Bolden. I do the same thing with the Congress.
    Mr. Beyer. So it's safe to say that this 1.3 percent 
reduction is at least partly based on the absence of the 
information about where we're going to end up in fiscal year 
2016?
    Hon. Bolden. Largely based on that.
    Mr. Beyer. Yes.
    Hon. Bolden. Had we known that the Congress was going to 
appropriate $19.3 billion, I would have been comfortable going 
in and asking for even more than we asked for.
    Mr. Beyer. So there are some cynics who suggested that OMB 
and NASA deliberately understated deep space exploration, Space 
Launch System, Orion, because they knew that the Space 
Committee and Congress love those and would push them back.
    Hon. Bolden. That is--I've heard that stated before, but as 
I said again, at the President's requested budget level, we are 
on target and we will produce the first flight of SLS and Orion 
with a human crew in 2023, and we have a 70 percent confidence 
level that we can do that. That's how we came up with the 2023 
and, you know, we decided 70 percent was the number we want to 
make, and it's a lot more fancy than I can explain in this 
hearing, but that's the number we came up with. And if all we 
got was the President's budget request, we would be launching 
EM-2 in 2023.
    I do have to say, we are focused on a program to get humans 
to Mars, not the first two flights, and we could spend 
everything in the world on EM-1 and EM-2 and then have nothing 
left for a sustained program. So we're using--if you gave me 
more money, I'd buy down risk, go back to Ms. Edwards' 
question. There is always risk, and more money for me means I 
can spend more to buy down risk. And it----
    Mr. Beyer. We only have 20 seconds left so very quickly, 
the roadmap, the Journey to Mars, many people have criticized 
that we're--Congress and NASA are not yet on the same page in 
terms of what that roadmap needs to be.
    Hon. Bolden. I think we're much more on the same page than 
most people are willing to admit. We don't know how--ultimately 
how we're going to make the final step from cislunar space to 
Mars. We just don't know, and it would be irresponsible of me 
as the NASA Administrator to pick a particular design reference 
mission the way we've always done in NASA and try to hold 
everybody to that to try to determine what the final 
architecture is going to be.
    If we decided right now, the question that the Congressman 
from Alabama asked, that says nuclear thermal propulsion is out 
because I don't have a budget that sustains nuclear thermal 
propulsion or VASIMR or any of those advanced propulsion 
systems now. But I'm an optimistic person, and I think that by 
the time we reach the end of the 2020s, the middle of the 
2020s, we will have gotten sufficient funding from the Congress 
and the Administration that we'll be well on the way to new 
types of in-space propulsion. We'll be able to have much more 
robust environmental control and life support systems, and that 
just--we're not there yet, and so it would be irresponsible of 
me to try to give you an architecture and a roadmap that has 
milestone flights with a design of a vehicle. We're just not 
there yet.
    Mr. Beyer. Thank you, sir, very much. Thanks, Mr. Chairman.
    Chairman Babin. Yes, sir, thank you. I'd now like to 
recognize the gentleman from California, Mr. Knight.
    Mr. Knight. Thank you, Mr. Chair, and thank you for having 
this.
    Administrator Bolden, I want to thank you. You know I'm 
going to talk about the big A----
    Hon. Bolden. Yes, sir.
    Mr. Knight. --and I appreciate this picture very much. You 
put an American hero on here. He is not looking at green there. 
He's looking at a lake bed----
    Hon. Bolden. I think he's----
    Mr. Knight. --and he's looking at a B-52. But Bill Dana is 
an American hero and I thank you for putting him on there.
    From 1968 to about 2000 or 2002, hypersonic research went 
from about the height to almost to zero and then we jumped 
again with the X-43 program. We went from the X-43 to the X-51 
and then again we decided that either money or it wasn't worth 
our while. Probably the first was the reason why we weren't 
going to go into hypersonic research.
    Can you tell me what a commitment is from NASA, what a 
commitment is from Congress to make sure that we continue on 
with hypersonic research so America will be the leaders on 
hypersonics and not China or someone else?
    Hon. Bolden. If Congress accepts the President's proposed 
budget, particularly the part that deals with aeronautics, it's 
a $25 million annual amount that NASA's commitment to DOD, to 
the integrated government--you know, DOD, intelligence 
community, everybody else that needs hypersonics, $25 million 
allows us to maintain our expertise but most importantly our 
facilities at Langley, at Glenn, at Ames. Anything less than 
that and we're going to be back where we were in those times 
that you describe where we're down. We're going to be back 
where we were when Erik Axdahl left to go back to Langley when 
he felt that there was no future in hypersonics.
    $25 million is the base that NASA needs to retain the 
nation's primary capability for fundamental hypersonics 
research. That is us. We do that. Nobody else does that.
    Mr. Knight. Perfect statement. You do that. We want NASA to 
be on the leading edge. I think that there are civilian 
companies that would like to jump into that realm at some 
point, but remember, typically, NASA will do an awful lot of 
R&D before private companies will jump into the mix.
    Hon. Bolden. Yes, sir.
    Mr. Knight. And that is the case here.
    Two other programs I'd like to talk about because you know 
I'm going to talk about aeronautics quite a bit. The first one 
is the low-boom demonstrator. Now, again, we went through 
adjusting program for about a three-year period where we put a 
big old almost pitot tube at the end of an F-15 and did some 
jousting to do a low boom so that hopefully us Congressmen from 
the West Coast can fly across this country in 2 hours one day, 
and we will alleviate that restriction from the FAA that's been 
going on since 1974 and all of these things that--you know, if 
any of you have ever heard of sonic boom, I know you've 
probably heard a thousand and I've heard a thousand. They're 
disrupting, but with a low-boom demonstrator is almost a hum, 
or a very--you almost----
    Hon. Bolden. Murmur.
    Mr. Knight. --wouldn't know it. It's a murmur, exactly. 
Explain how important that would be to the economics of this 
country, the economics of the world if we could get there.
    Hon. Bolden. Congressman Knight, it would be critically 
important to this nation economically because right now, the 
European space agency--well, European aeronautics companies 
because most of their flight is over water. They have said we 
don't care. You know, we don't have the regulation that the FAA 
has put on American aircraft not to fly supersonically over 
ground.
    So, as you said, the low-boom technology has allowed us to 
really reduce its energy from sound that breaks windows and 
stuff. The low-boom configuration actually causes it to be just 
a murmur and comfortable to people.
    We will have aircraft that will be able to get places much 
faster. Businessmen, for example, can do their business--they 
can get around the world in six hours instead of however much 
time it takes today. Yes, I mean, anybody.
    And, you know, there's a common misconception. I've heard 
it said one of the reasons that people resisted our efforts in 
this regard was because they said, well, the only reason for 
having supersonic airplanes is so that rich people can go 
places fast.
    Mr. Knight. Not true.
    Hon. Bolden. That's--you know, some of us normal people 
want to go places----
    Mr. Knight. That's right.
    Hon. Bolden. --fast----
    Mr. Knight. Some of us normal people want to go----
    Hon. Bolden. --also. And I do a lot of intercontinental 
travel. I would love to be able to get into an airplane and go 
from here to Moscow or wherever else I'm going in a couple 
hours instead of the 14 hours that it takes today.
    Mr. Knight. And lastly, in my 15 seconds I'm just going to 
thank you. We fully funded SOFIA again.
    Hon. Bolden. Yes.
    Mr. Knight. SOFIA is, to me, a moving classroom. It's not 
unlike the space shuttle. We used the space shuttle in the 
beginning for an awful lot of research and astronauts, but we 
put teachers on. We did many things, as you know, with the 
space shuttle program. We're doing that with SOFIA, so we take 
fifth-grade teachers in there. They go back and they inspire 
our fifth-graders to now be the next Charlie Bolden. They 
inspire them to be an astronaut. And that is exactly what these 
types of programs are doing. They're benefiting the country, 
not just the science that we're getting out of SOFIA. So I want 
to thank you for that, too.
    Hon. Bolden. Thank you for your support.
    Mr. Knight. Thank you, Mr. Chair.
    Chairman Babin. Thank you.
    I'd now like to recognize the gentleman from California, 
Mr. Bera. He's not here? Okay.
    Mr. Perlmutter from Colorado.
    Mr. Perlmutter. Thank you.
    Chairman Babin. Yes, sir.
    Mr. Perlmutter. I'm from Colorado and I'm a lot better 
looking than Bera, so it's okay.
    Mr. Knight sort of highlighted some of the things that have 
been so inspirational recently, whether it's New Horizons or 
talking about the SOFIA, things like that. And that's--I got to 
tell you, I serve on two committees. My colleagues have heard 
this before. One is Financial Services, the other is this 
committee, the Science, Space, and Technology Committee. And 
the way we are pushing the horizon and moving forward with our 
science, even though it's kind of herky-jerky at times, we are 
doing it. And it really--that's what Americans want to see us 
do, you know, whether it's in a caucus in, you know, suburban 
Denver or primary, people want us to know--want to know that we 
can work together.
    And on this Committee, you know, there are places where we 
fight but we work together on a lot of issues. And want to keep 
an eye on the budget obviously. That's part of our job as 
Members of Congress, want to have good people in an agency like 
yours who we can trust to be good engineers, scientists, 
mathematicians, technicians, to take on these major tasks which 
you said and everybody knows are not without risk. So the 
Chairman and I wrote this op-ed----
    Hon. Bolden. Right.
    Mr. Perlmutter. --this article on getting us to Mars by 
2033. And it came from information that we had at a hearing 
about 3, 4 months ago. And I just--I'd like to use my prop, 
this bumper sticker, ``2033, We Can Do This'' because we can. 
And the responsibility of those of us up here is to provide the 
financial platform for you all to design your program and the 
building blocks that go into place.
    Mr. Rohrabacher was talking about the moon. That may be 
part of your building blocks. I am not a scientist. I can't 
determine how you want to build the program that gets our 
astronauts to Mars by 2033, but I can help you by assuring your 
agency that Democrats and Republicans, Congresses from now 
until 2033 and Administrations from now until '33 really do 
have a major effort in place.
    So how does NASA look at us when we say something like, 
yes, get there by 2033? Is it with a little bit of skepticism I 
would imagine?
    Hon. Bolden. Not at all. When--you know, to have a Member 
of Congress who has a bumper sticker that says we can do this, 
we don't see--the American public doesn't see that enough. You 
know, in this day and age what they--what the young people 
sitting here see and hear all the time is we can't do this, we 
are not a great nation, we are going to be but we're not right 
now. That's just bunk.
    We're the greatest nation in the world. We always have 
been. And if we stay focused--Congressman Edwards used the term 
constancy of purpose. She probably got that from the same 
person I did, from Admiral Joe Dyer, the Chairman of my ASAP. 
Constancy of purpose means exactly what you and Chairman Smith 
wrote. And you--but you've got to believe that. The Congress 
and the Administration have got to come together and they've 
got to set long-term vision that's going to go beyond that 
Administration. Most of what I do today I'm never going to see 
it, you know, but I'm doing it for my grandchildren.
    That's what you all should be doing. You know, you should 
be looking out and saying whoever takes my place, I'm going to 
brief them on why I supported this and make sure that they do 
it. We plan to do the same thing with the incoming 
Administration, the incoming candidates to be quite honest. We 
want to let them know what NASA is doing and what the Congress 
and the Administration, in spite of what everybody says, you 
all work pretty well together now and then.
    And so you have set us on a course to Mars. We can get 
there in the 2030s, but it's a long, hard, risky slog and we've 
got to do things on the International Space Station, we've got 
to spend ten years in cislunar space. That's going to allow 
people like Congressman Rohrabacher talked about who have these 
visions of doing what we once did, putting humans on the 
surface of the moon.
    NASA can help them, but NASA can't stop at the moon. If we 
set the moon as our primary objective, that's it. We're not 
going any farther than that. So that's why we're focused on 
Mars. And we've got a pretty good plan that will get us there, 
but it is step-by-step. We've just got to stay together in 
doing that.
    Mr. Perlmutter. No, and I appreciate that. I mean, so for 
us, our problem is a pretty, you know, substantial one, which 
is to find the billions of dollars that will, you know, support 
the effort. And I've learned some new terms. You know, one-year 
appropriations, multiyear appropriations, and something called 
no-year appropriations, which I still don't quite understand. 
So--but we're working on it, and I think we're working together 
and we want to get this done. So thank you, sir, for your 
service.
    Hon. Bolden. Thank you.
    Chairman Babin. Thank you.
    I'd now like to recognize the gentleman from Florida, Mr. 
Posey.
    Mr. Posey. Thank you, Mr. Chairman. And thank you, General, 
for your service to our armed forces and NASA.
    Hon. Bolden. Thank you.
    Mr. Posey. I'd like to focus just for a moment on 
Exploration Mission 1 referred to in all our paperwork as EM-1, 
the first time that you'll fly SLS and Orion together hopefully 
in 2018. The Government Accountability Office--let me just look 
at--get his quote--and the NASA Inspector General have both 
cautioned us that Exploration Mission 1 could be delayed 
because of potential risks for the exploration ground systems 
program. The Administration is requesting $403 million in 
discretionary spending in fiscal year 2017, a reduction of $6.8 
million from fiscal year 2016. How will this request impact the 
Exploration 1 schedule? I mean, I understand we can fully fund 
Orion----
    Hon. Bolden. Yes, sir.
    Mr. Posey. --we can fully fund SLS, we can fully fund all 
the airplane research, we can fully fund all the weather stuff, 
but if we don't have the ground systems in place, nothing's 
going to get off the ground, General.
    Hon. Bolden. Mr. Posey, you're preaching to the choir. And 
this is what I've said to this and other committees for many 
years. It is great to be focused on the vehicles, but unless 
you have a launch complex like the Kennedy Space Center, the 
world's most incredible multiuser launch complex, unless you 
have that, you're going nowhere.
    Mr. Posey. Yes.
    Hon. Bolden. And that's--you know, when people talk about--
a critical part of SLS is the ground system. SLS with no ground 
system is worthless. So we're given a limited budget, we try to 
take the funds that are in the big category of exploration and 
use them so that the ground system, the rocket, and the module 
get to launch day together. And that requires doing what Bob 
Cabana is doing in an incredibly fine manner down at the 
Kennedy Space Center.
    The other thing that has helped is having commercial 
entities that now provide access to low-Earth orbit so that we 
don't have to worry about that. If you go down to Kennedy now 
and you look at Launch Complex 39A from where Neil Armstrong 
launched, that's now American ingenuity. That's SpaceX. And I 
haven't seen it recently, but everybody tells me it is mind-
boggling what they're doing to 39A. That's American ingenuity, 
and that's what's going to take us to Mars. So I could not 
agree with you more. We've got to focus on the infrastructure, 
and that's exploration ground systems.
    So when I say I want to take $1 million or whatever it is 
that's--that people think is designated for the rocket because 
I want to upgrade the security on the exploration ground 
system, we're not doing that because we're being frivolous. We 
see that EGS is not going to be ready in time to meet the 
rocket's date----
    Mr. Posey. Exactly.
    Hon. Bolden. --unless we do it that way so----
    Mr. Posey. Well, thank you. Those are magic words to my 
ears, General. So I assume, then, that I can be assured that 
we're not going to end up with an SLS and Orion and lack a 
ground system that's ready to launch.
    Hon. Bolden. I can assure you, sir, that with the 
President's budget request at that level, the exploration 
ground system, SLS, and Orion will be ready to launch in 2018 
together.
    Mr. Posey. Okay. Thank you for that assurance.
    Hon. Bolden. Yes, sir.
    Mr. Posey. Thank you. The Orion program received $1.27 
billion in fiscal year 2016. The discretionary request from 
NASA for fiscal year 2017 is $1.05 billion. Will this request 
delay EM-2, Exploration Mission 2, where we're actually going 
to put men in here? If NASA received $1.27 billion in fiscal 
year 2017 for Orion, would EM-2 be delayed?
    Hon. Bolden. At the President's budget request, EM-2 is 
scheduled to go in 2023, and that's our commitment to the 
President, to the Congress, to the nation. As I commented to 
Congresswoman Edwards, if you gave me the levels that you 
continue to give, then we're going to make sure that we will 
make 2023. We could make it earlier, but I want to get away 
from people focusing on an earlier date because that does bring 
concerns about safety into the mix, and that's what the ASAP 
was talking about.
    You know, 2023 is a great date. If that's what we think we 
can meet with a 70 percent confidence level, increased funding 
even makes it even more certain we're going to make that date. 
But the team always works to be ready earlier than projected, 
so we probably could launch earlier than 2023 with increased 
funding, but we have committed to 2023 and we'll make that at 
the President's budget request.
    Mr. Posey. Thank you, Mr. Chairman. I see I'm out of time.
    Chairman Babin. Yes, sir. Thank you.
    I think we've got enough time for us to go back through one 
more time. Or do we--did somebody just come in? Yes, we've got 
every--I think everybody has already asked question, but let's 
go back through one more time and let's may be limit it to 
about two minutes if that's okay.
    So my question would be on the mandatory spending, and I'd 
like to--everybody to know the implications of this. And I'm 
just wondering if the President and the Administration and you 
are fully aware because I heard you mention a while ago whether 
it's mandatory or discretionary, it doesn't matter to you, you 
just want the money, but as us, as Members of Congress, I would 
like for you to be fully aware of the consequences for tapping 
into mandatory spending.
    The budget request includes funding derived from mandatory 
spending such as--and this will be--let me just tell you, 
Social Security, Medicaid, Medicare, they're subject to the 
PAYGO rule, which means that any new entitlement program must 
be accompanied by a corresponding cut to an existing 
entitlement or an increase in taxes. In other words, we've got 
to pay for this.
    In order to pay for NASA's entitlement spending, the 
President's budget request calls for skyrocketing tax increases 
across the board, as well as cuts to Social Security, Medicare, 
Medicaid. And other proposed cuts include reduction to student 
loans, their program, unemployment insurance, and veterans' 
benefits. It would also create new fees for farmers, hunters, 
air travelers, increase military health care copayments, and 
federal employee health care and retirement costs. It would 
increase the cost of our Postal Service, mail, reduce U.S. 
postal services. These proposals would increase the cost of 
every American's electricity bill, as well as the price they 
pay at the pump.
    Just a few months ago Congress fully funded NASA at $19.28 
billion without any budget gimmicks, tax increases, or 
entitlement cuts, and now the President is requesting a $1 
billion cut to NASA and discretionary spending and asking for 
pie-in-the-sky tax increases, cuts to mandatory benefits, and 
increased entitlements with this mandatory side.
    Why should Americans agree to this budget request when NASA 
would receive more money under a CR, continuing resolution, 
without any of the pain that this budget request would cause? 
And I would invite you to please look at the President's budget 
right here and take a look at table S-9, page 129 of the 
President's budget. We will have nine pages of tax increases 
and billions of dollars in cuts to programs that are already 
there or increases in taxes.
    So why should Americans agree to this budget request, when 
we have more money under the proposed CR and not have any of 
the pain that this budget request would cause?
    Hon. Bolden. Mr. Chairman, I'm not a budgeteer.
    Chairman Babin. Okay.
    Hon. Bolden. I don't----
    Chairman Babin. Well, I just wanted you to know----
    Hon. Bolden. Yes, sir.
    Chairman. Babin. --okay, because we have to look at this. 
When it says mandatory spending, there are implications. There 
are consequences to this, and the consequences--you're a 
veteran.
    Hon. Bolden. Yes, sir.
    Chairman Babin. That's just one little aspect of some of 
the consequences that it would hit veterans.
    Hon. Bolden. Mr. Chairman, I would--if I may, I would say 
one thing----
    Chairman Babin. Sure.
    Hon. Bolden. --and that was when we started the budget 
process, we started several billion dollars below where we are 
because we were told that sequester is still a possibility. And 
it still is a possibility. It is not off the table, and that's 
something that I think the budgeteers at least, you know, when 
I talk to my guys, they are--they always remind me, you know, 
we do have this thing called sequester. So in defense of the 
budgeteers, I think they're trying to work with the Congress 
and find a way to get that. It's a limit, but it can be solved 
somehow.
    Chairman Babin. Right.
    Hon. Bolden. I don't know how to do that.
    Chairman Babin. Okay.
    I now recognize the gentlewoman, Ms. Edwards from Maryland.
    Ms. Edwards. Thank you, Mr. Chairman.
    And just a really quick question. We spent some time over 
the last several Congresses really going to bat for the 
education budget within NASA. Across the aisle, Republicans and 
Democrats, we felt very, very strongly about keeping those 
within NASA. I noticed that this year's budget request is--one, 
it's $5 million less than what was enacted in 2016, which is 
problematic. And what I really notice is that the Minority 
University Research Education project is down $2 million. I see 
a plus up in STEM education and then a significant decrease in 
the Space Grants.
    And I want to speak to the Minority University Research 
Education because I have been really privileged to see some of 
the fruits of this labor at Morgan State University, which is 
conducting some joint research with NASA. I think it is a great 
way to get this next generation to find these engineers and 
researchers who are out there who are minorities, women, other 
underserved communities.
    And so this university research education project plays a 
tremendous role with Historically Black Colleges and 
Universities and underserved--and minority populations and with 
getting women also engaged in the STEM fields. And so I'm 
concerned about the decreases. I think this is where the next 
generation is going to come from. And I'll just let you comment 
on that.
    Hon. Bolden. I share your concern, Congresswoman Edwards. 
Every year, you know, I have to sign a report on funding for 
HBCUs. And it's either the same or a little bit less, and so 
that is troubling, but when we look at funds that are 
available--so what we've tried to do is we've tried to let some 
innovative ways to ensure that we can make HBCUs and minority-
serving institutions more competitive. One of the ways is in 
small business. So whereas most HBCUs and minority-serving 
institutions today look for grants, we are trying to team them 
with larger research institutions so that they can learn how to 
go after contracts so that they can enter into contracts with--
to allow their professors to actually do like--Congressman 
Perlmutter knows this. The University of Colorado Boulder, 
MAVEN--MAVEN is the University of Colorado Boulder. That was 
the--that's the principal investigator is a professor--this is 
a Mars--a critical Mars satellite.
    We ought to be able to get HBCUs and minority-serving 
institutions to learn from Colorado Boulder so that they can 
compete for contracts so that the students who want to be 
engineers can actually build satellites. We're starting little. 
We're starting with SmallSats or CubeSats. And so while it's 
not for MUREP or other kinds of programs, we're finding 
alternative ways to get money to minority campuses. We're not 
there yet, but we're trying to do that.
    We call it Mentor-Protege where a large college takes a 
small HBCU and tries to bring them along. Alabama Huntsville, 
Morgan State, Hampton, they're unusual. They know how to--you 
know, they have contract offices. Most HBCUs don't even have a 
clue, and that's not--that is not a slight on the HBCU. It's 
just that they've never known that that's available to them 
also. And so we've got to spend time doing it. I share your 
concern.
    Chairman Babin. Thank you.
    I'll now recognize Mr. Posey from Florida.
    Mr. Posey. Thank you, Mr. Chairman.
    General, just to kind of pick up where we left off last 
time when I ran out of time, let's suppose that NASA received 
an extra $1.35 billion in fiscal year 2017. What would that get 
spent on?
    Hon. Bolden. The first thing it would be spent on buying 
down risk across the board in our programs, and a large portion 
of it would go into human spaceflight.
    And what does that mean, buying down risk? We would go out 
and purchase long lead items for downstream vehicles so that 
EM-3, EM-4, EM-5 would be--the vehicles for those flights would 
be able to begin construction now rather than waiting three or 
four or five years from now.
    We would probably put more money into beefing up our Safety 
and Mission Assurance organization or the Engineering 
organization to make sure that we satisfy Congresswoman 
Edwards' concern and that of the ASAP that we don't let launch 
fever or those kinds of things happen. And of course, we would 
try to get as much done quickly so that we could launch sooner. 
But the big focus would be on buying down risk.
    Mr. Posey. Thank you. For a long time we talked about EM-2 
being in 2021 and now we're a big bump to 2023. Could just a 
matter of funding put that back on track?
    Hon. Bolden. Yes, a matter of funding could put EM-2 back 
on track, but all the funding would not go to doing that, 
again, as I said, because what I don't want to do is put a 
bundle of money on EM-2, have no long lead items having been 
procured, have tests that need to be done and don't get done 
and we launch EM-2 earlier and we're stopped. So----
    Mr. Posey. I get that.
    Hon. Bolden. --it's not as----
    Mr. Posey. I get that.
    Hon. Bolden. It's not black and white.
    Mr. Posey. And the economy of having more closer together 
is there, too. I mean, I understand the economic benefits of 
doing that.
    Hon. Bolden. Yes. You know, development curve--a funding 
curve for development program has a little hump in it. None of 
ours ever have that. Ours is always straight line.
    Mr. Posey. Yes.
    Hon. Bolden. The work that people like Bob Cabana and Todd 
May and Ellen Ochoa and the program managers do every single 
year, Bill Gerstenmaier, in fitting a development program--and 
we have, I think, five human spaceflight development programs 
underway, never been done by this agency before. When you talk 
about commercial crew, commercial cargo, suborbital flight, 
Orion, SLS, EGS, and not to mention the science programs, we've 
got a lot of stuff that we're trying to do and all of it is 
incredibly valuable. We don't have anything that I would say, 
you know, let's stop doing it because it's all important for 
the nation.
    Mr. Posey. Great. Thank you very much.
    Chairman Babin. Thank you.
    Let's see. Now, the gentleman from Virginia, Mr. Beyer.
    Mr. Beyer. Thank you, Mr. Chairman.
    General, Congress has expressed in the past--or the 
concerns have been expressed that it's not safe to have missile 
rocket launches and offshore oil rigs in the same area. In 
2015, NASA stated that the presence of either temporary or 
fixed structures at or below the sea surface within our range 
hazard areas, would have significant detrimental effects on our 
ability to conduct aerospace test activities.'' In addition, 
there was a warning that ``impact with an oil platform would 
cause catastrophic damage and would result in the complete loss 
of expensive launch vehicles.'' So Tuesday, the Administration, 
Secretary Jewell, reversed course on mid-Atlantic oil and gas 
leasing program, at least through 2022. Could you tell us if 
offshore oil and gas drilling and exploration off Virginia's 
coast is consistent with the activity of NASA Wallops?
    Hon. Bolden. Mr. Beyer, I'll take that for the record. I 
will say one thing about the comment you made. Any spacecraft 
that impacts anything here on Earth is bad for the--whether 
there's an oil well there or not, if it comes back to Earth, 
it's a bad day. So having an oil well there doesn't make a 
difference, but I'll take it for the record to find the answer 
to your specific question.
    Mr. Beyer. Okay. Good. Because I was trying to quote NASA 
there as much as I could so----
    Hon. Bolden. Yes, sir. And I understand that. I have some 
incredible people, a lot smarter than I am, and so they're 
going to educate me so I can answer your question.
    Mr. Beyer. Okay. Good. How about a brief progress report on 
James Webb Telescope, and are we still on track for launch 
October 2018?
    Hon. Bolden. We are on track for launch October 2018, and 
we actually have--I'll try to get this right--about a 7-1/2 
month cost and schedule reserve, which we--in all probability 
we'll need because there are some critical tests upcoming when 
we move the spacecraft down to the Johnson Space Center, and 
there's always something that comes up that you don't 
anticipate. So it's the place you want to be. But we're on 
track right now for 2018.
    Mr. Beyer. It's very exciting. Thank you, General.
    Mr. Chairman, I yield back.
    Chairman Babin. Yes, sir. Thank you. And I believe Mr. 
Perlmutter, the gentleman from Colorado.
    Mr. Perlmutter. Thanks, Mr. Chairman. And I just have a few 
thank-yous I want to give. One is to Scott Kelly and his recent 
record-setting journey on the Space Station. And for a short 
guy like me, it was encouraging to hear that he was 2 inches 
taller when he came down than his identical twin brother.
    Hon. Bolden. Only temporary.
    Mr. Perlmutter. I know. It didn't last long, but still, 
there's hope. And I want to thank NASA. And yesterday, we had 
another astronaut here testifying, Kathy Sullivan on behalf of 
NOAA, and both of your agencies helped my office recently with 
major weather--giant weather system Cyclone Winston that 
clobbered Fiji. And we had some constituents who were missing 
for several days, and we were able to get some pictures from 
your agency, NOAA, some others to at least give the family 
comfort that the part of the island where they were wasn't 
completely flattened. And after several days and--the 
communications were restored, but it gave comfort to the 
families. So I want to thank you for that.
    Also thank you with respect to the cargo missions. You 
know, recently one of the companies in Colorado was awarded one 
of the contracts to deliver cargo, Sierra Nevada, up to the 
space station.
    And lastly, you mentioned the University of Colorado, and 
they're playing the University of Connecticut today in the 
first round of the NCAA, so I do want to say go Buffs. But 
TSIS, Total Solar Irradiance Sensor----
    Hon. Bolden. Sensor, yes, sir.
    Mr. Perlmutter. --is what we met about at CU a couple years 
ago, built by CU students, and it's going to catch a ride to 
the Space Station in 2018. And obviously very proud of the 
university and the kinds of things it does working with NASA 
and the things that it does in terms of getting students 
involved with outer space. So I don't know if you want to 
comment on any of those, but just thank you for your service 
again, General.
    Hon. Bolden. Sir, my--I appreciate all the compliments. 
I'll try to make sure we get them out to everybody. I'll be 
with Scott next week when we go to Moscow for his post-flight.
    But I would go back to Congresswoman Edwards' question 
about HBCUs and the like and say that's what we want to do with 
schools like Morgan and Howard and Hampton. We want them to 
have students who are working on spacecraft, and that's--that 
takes some effort. And, first of all, you have to convince them 
that they can. You've got to let them know that opportunities 
are there. You're not--we use the term inspire all the time. I 
had a young black engineer one time who told me if he heard me 
say inspire one more time he's going to puke. And I went, what 
do you mean? He said, we can't inspire anybody until we inform 
them. And so there are kids from my community back in South 
Carolina and all over this country that you all represent who 
don't have a clue what they can do. And so the first thing--and 
that's what NASA tries to do with the limited funds we do have 
in our education program.
    And I actually have a $19 billion education budget. I know 
you all think I'm being trite when I say that because 
everything we do in NASA is really focused on trying to inspire 
and inform young people about what they can do to be a part of 
the NASA family. And so I'm very, very thankful for the $19.3 
billion that you all appropriated for us out of the Congress 
last year. Thank you, sir.
    Mr. Perlmutter. Thank you.
    Chairman Babin. Thank you. And this really concludes our 
hearing, and it's been an excellent hearing. And I want to 
thank the witness, General Charlie Bolden, for your long 
illustrious career and your leadership of NASA. And I want to 
thank you on behalf of the entire Committee. I'd also like to 
thank the Committee Members for their very informative and 
great questions.
    So with that, this hearing is adjourned.
    Hon. Bolden. Thank you, sir.
    [Whereupon, at 12:09 p.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

Responses by the Hon. Charles F. Bolden, Jr.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                       [all]
</pre></body></html>
